HHS/OIG, Audit -"Review of Medicaid Drug Rebate Program, State of Illinois
- Illinois Department of Public Aid, Springfield, Illinois,"(A-05-03-00044)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Drug Rebate Program, State of Illinois - Illinois Department
of Public Aid, Springfield, Illinois," (A-05-03-00044)
June 24, 2003
Complete
Text of Report is available in PDF format (294 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to evaluate whether the Illinois Department of
Public Aid (IDPA) had established adequate accountability and internal controls
over the Medicaid drug rebate program. In our opinion, IDPA established adequate
accountability and internal controls over its Medicaid drug rebate program.  The
financial management system used  to provide the necessary information complies
with Federal regulations.